  
  

OFFICE OF THE ATTORNEY GENERAL
Carolyn M. Snurkowski

 

Assistant Deputy Attorney General

PL-O1 The Capitol

Tallahassee, FL 32399-1050

ASHLEY MOODY Phone (850) 414-3300
ATTORNEY GENERAL Fax (850) 487-0168
STATE OF FLORIDA hitp:/www.myfloridalegal.com

November 9, 2020

The Honorable Scott S. Harris,
Clerk of Court

Supreme Court of the United States
One First Street N.E.

Washington D.C. 20543-0001

VIA ELECTRONIC DELIVERY

Re: Mery! McDonald v. Florida,
Case No. 20-5954 — Capital Case

Dear Mr. Harris:

Respondent, the State of Florida, requests a fourteen-day extension of time to file
its Brief in Opposition to the petition. Sup. Ct. R. 30.4. The Solicitor General's Office
has not had an opportunity to fully review the brief for filing, and an additional 14 days
is needed to provide ample time for this review. The Petitioner, Meryl McDonald, is
proceeding pr se and cannot be contacted regarding his position to this request.

herefore, espondent requests until Monday, November 23, 2020, to file the brief in
opposition.

 
 

i a
tolyn M. Snurkowski
sso¢iate Deputy Attorney General
Counsel of Record

OFFICE OF THE ATTORNEY GENERAL
CAPITAL APPEALS

PL-01, THE CAPITOL

TALLAHASSEE, FL 32399-1050
(850)414-3300
carolyn.snurkowski@myfloridalegal.com

    
 

Copies mailed to Meryl McDonald, #180399, Union Correctional Institution, P.O. Box 1000, Raiford,
Florida 32083, this 9th day of November, 2020.
